No. 20-255
IN THE

Supreme Court of the United States
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.
B.L., A MINOR, BY AND THROUGH HER FATHER
LAWRENCE LEVY AND HER MOTHER BETTY LOU LEVY,
Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 31st day of March, 2021, I caused three copies of the Brief of School
Discipline Professors as Amici Curiae in Support of Respondents to be served by thirdparty commercial carrier on the counsel identified below, and caused an electronic
version to be transmitted to the counsel identified below, pursuant to Rule 29.5 of the
Rules of this Court. All parties required to be served have been served.
Lisa S. Blatt
WILLIAMS & CONNOLLY LLP
725 12th Street, N.W.
Washington, D.C. 20005
(202) 434-5050
lblatt@wc.com

Witold J. Walczak
ACLU OF PENNSYLVANIA
P.O. Box 23058
Pittsburgh, PA 15222
(412) 681-7864
vwalczak@aclupa.org

Counsel for Petitioner

Counsel for Respondents

_/s/ Richard W. Mark___________
Richard W. Mark

